              Office of Inspector General
              Audit Report




                     WATER

    New Jersey’s Water Quality Monitoring Program
                      1999-1-00225
                      July 21, 1999


.
Inspector General Division   Eastern Audit Division
 Conducting the Audit        Boston, Massachusetts
Region Covered               Region 2
Program Office Involved      Division of Environmental Planning &
                             Protection, Water Programs Branch
MEMORANDUM
SUBJECT:      New Jersey Water Quality Monitoring Program
              Audit Report No. 1999-1-00225
FROM:         Paul D. McKechnie
              Divisional Inspector General for Audit
               Eastern Audit Division
TO:           Jeanne M. Fox
              Regional Administrator, Region 2


       Attached is our audit report, New Jersey Water Quality Monitoring Program. This
report contains findings and recommendations that are important to the Division of
Environmental Planning and Protection, Water Programs Branch.

        This audit report contains findings that describe problems the Office of Inspector
General (OIG) has identified and corrective actions the OIG recommends. The audit
report represents the opinion of the OIG and the findings contained in this audit report do
not necessarily represent the final EPA position. Final determinations on matters in this
audit report will be made by EPA managers in accordance with established EPA audit
resolution procedures.

ACTION REQUIRED

       In accordance with EPA Order 2750, you as the action official are required to
provide this office a written response to the audit report within 90 days. Your response
should address all recommendations, and include milestone dates for corrective actions
planned, but not completed.

       We have no objection to the release of this report to the public.
       Should you or your staff have any questions about this report, please contact Ira
Brass, Principal Team Leader at (212) 637-3057.

Attachment

cc:    Kathleen Callahan, DEPP
       Walter Andrews, DEPP
       Barbara Pastalove, OPM
       Robert Tudor, NJDEP
             EXECUTIVE SUMMARY
INTRODUCTION       Water is one of our most vital resources and must be
                   protected. One of the Environmental Protection
                   Agency’s (EPA’s) ten strategic goals is clean and safe
                   water. People use lakes, rivers, and streams for
                   drinking water, boating, fishing, swimming, irrigation,
                   and industry. States adopt water quality standards to
                   protect these uses of the water, and monitor the water
                   to find out how well the water quality supports the
                   water uses. The states and EPA use the water quality
                   information as a basis for their programs to control and
                   clean up water pollution. This audit is one in a series
                   of state water quality audits conducted by the Office of
                   Inspector General (OIG) to develop a national picture
                   of the performance of state water quality programs.

OBJECTIVES         Our overall objective was to review New Jersey’s
                   water quality standards and monitoring program. Our
                   specific audit objectives were to answer the following
                   questions:

                   1.     Has New Jersey implemented procedures to
                          develop water quality standards that will protect
                          its water quality?
                   2.     Has New Jersey implemented procedures to test
                          and assess the quality of all appropriate waters
                          in the State?
                   3.     Are State reports on water quality complete,
                          accurate, and useful for program management?
                   4.     Has Region 2 implemented effective procedures
                          to approve New Jersey’s water quality standards
                          and evaluate the State’s water quality standards
                          setting, testing, assessing, and reporting?

RESULTS IN BRIEF   New Jersey had implemented procedures to develop
                   water quality standards. Overall, New Jersey had
                   established a structure for the running of a

                             i                         Report No.1999-1-00225
comprehensive water quality program that generally
protects its surface water to sustain human health and
aquatic life, and provides for recreational and
economic activities. It had also adopted numerical
criteria that were slightly more stringent than Federal
criteria.

However, State and Regional officials have stated that
decreased environmental funding and resources forced
the State agency to make choices. New Jersey had
made a good effort to assess its waters through an
ambient surface water monitoring network. Yet, there
were reductions in the number of monitoring stations
and the frequency of samples taken to assess water
quality corresponding with budgetary reductions. All
the above issues are discussed in more detail in
Chapter 2.

Water quality reporting was also affected by budgetary
restraints. Water quality reports were not complete and
accurate because they did not include all State waters.
In addition, the biennial report on State water quality
and the listing of impaired water bodies were
consistently late. The biennial reports were issued one
to two years after their due dates, while the impaired
listing missed its deadline by 5 to 28 months.
Furthermore, few pollution limits to correct the
impairments were developed. Reporting issues are
detailed in Chapter 3.

The priorities that were set sometimes benefitted some
aspects of the program at the detriment of others. For
example, New Jersey concentrated many of its
monitoring and assessment resources on coastal
waters. The State has a growing shellfish industry and
vast coastal recreation which are important economic
factors. While the State’s shell fishing and beach
monitoring activities improved, other water bodies
including lakes and ponds, have suffered. Chapter 4
provides more detail on how the assignment of a lower
priority has affected the State’s lakes.

          ii                        Report No.1999-1-00225
                   Finally, the Region had been improving its oversight of
                   the New Jersey water quality monitoring program.
                   However, we found some areas where improved
                   communications could strengthen the program.
                   Regional oversight is discussed in Chapter 5.

RECOMMENDATIONS    We recommend that the Regional Administrator work
                   with the New Jersey Department of Environmental
                   Protection (NJDEP) to determine a way to maximize
                   the use of available resources to increase the number
                   and frequency of sites tested annually. We also
                   recommend that the Region continue to work with the
                   State to improve its timeliness for issuing water quality
                   reports. In addition, the Region needs to periodically
                   review and monitor the State’s 10-year total maximum
                   daily load schedule to assure that planned actions are
                   being met and commitments are being achieved.

                   We also recommend that the Regional Administrator
                   encourage NJDEP to actively solicit, assemble and
                   evaluate all existing and readily available lake water
                   quality related data and information. NJDEP needs to
                   develop and implement a plan to assess and report the
                   status and trends of all publicly owned lakes.

AGENCY COMMENTS    The Assistant Regional Administrator for Policy and
& OIG EVALUATION   Management (ARA) responded to our draft report on
                   May 28, 1999. The response also attached NJDEP’s
                   comments dated May 4, 1999. Both agencies provided
                   additional information, clarifications, and actions taken
                   to the issues presented in the draft report. Based on
                   those responses, we have revised the report, where
                   appropriate. Their responses have been summarized at
                   the end of each chapter. The complete Regional and
                   State responses have been included as Appendices 2
                   and 3. An exit conference was held with Regional and
                   State officials on June 15, 1999. A copy of the
                   proposed final audit report was sent to the State on
                   June 25, 1999. Some additional comments were
                   provided on July 6, 1999.

                            iii                         Report No.1999-1-00225
iv   Report No.1999-1-00225
                         TABLE OF CONTENTS

                                                                                                                         Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vii

CHAPTER 1 - INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

     Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

     Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

     Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

     Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

CHAPTER 2 - NEW JERSEY’S WELL STRUCTURED STATE WATER QUALITY
    PROGRAM COULD BE STRENGTHENED . . . . . . . . . . . . . . . . . . . . . . . . . . 5

     Comprehensive Standards Developed But Not Timely Approved . . . . . . . . . . . . . . 5

     Monitoring Program Needs to Assess All Waters . . . . . . . . . . . . . . . . . . . . . . . . 10

CHAPTER 3 - REPORTING PROCESS NEEDS IMPROVEMENT . . . . . . . . . . . . . 17

CHAPTER 4 - LAKES NEED MORE ATTENTION . . . . . . . . . . . . . . . . . . . . . . . . . 27

CHAPTER 5 - REGION’S OVERSIGHT IMPROVED OVERALL PROGRAM . . . . 39

APPENDIX 1 - BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

APPENDIX 2 - REGIONAL RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49



                                                              v                                     Report No.1999-1-00225
Page

APPENDIX 3 - STATE RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 62

APPENDIX 4 - DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 76




                                                     vi                             Report No.1999-1-00225
                  ABBREVIATIONS
CFR             Code of Federal Regulations
CWA             Clean Water Act
DDT             p,p’-Dichloridiphenyltrichlorethane
DEPP            Division of Environmental Planning & Protection
EPA             Environmental Protection Agency
ESA             Endangered Species Act of 1973
FWS             U.S. Fish and Wildlife Service
NEPPS           National Performance Partnership System
NJDEP           New Jersey Department of Environmental Protection
NJDOH           New Jersey Department of Health
NJSWQS          New Jersey Surface Water Quality Standards
OIG             Office of Inspector General
PCB             Polychlorinated Biphenyl
PPA             Performance Partnership Agreement
QA/QC           Quality Assurance/Quality Control
SFY             State Fiscal Year
STORET          STOrage and RETrieval
TMDL            Total Maximum Daily Loads
303(d) List     Impaired Water body List
305(b) Report   Water Quality Assessment Report




                                     vii                     Report No.1999-1-00225
[This page intentionally left blank]




                                       Report No.1999-1-00225
             CHAPTER 1
             INTRODUCTION


PURPOSE       Water quality standards establish water quality goals
              for the water body, and serve as the regulatory basis
              for pollutant discharge limits in the state discharge
              permitting programs and for non-regulatory nonpoint
              source controls. Stronger state monitoring programs
              help to better target the water bodies for cleanup,
              protect areas that already meet water quality standards,
              and schedule assessment of waters of unknown quality.
              Stronger state water quality monitoring programs also
              will help EPA and states do a better job of evaluating
              whether management and control programs are
              achieving environmental results.

              Our overall objective was to review New Jersey’s
              water quality standards and monitoring program. Our
              specific objectives were to identify the following:

              1.     Has New Jersey implemented procedures to
                     develop water quality standards that will protect
                     its water quality?
              2.     Has New Jersey implemented procedures to test
                     and assess the quality of all appropriate waters
                     in the State?
              3.     Are State reports on water quality complete,
                     accurate, and useful for program management?
              4.     Has Region 2 implemented effective procedures
                     to approve New Jersey’s water quality standards
                     and evaluate the State’s water quality standards
                     setting, testing, assessing, and reporting?

BACKGROUND    The Clean Water Act (CWA) is the primary legislation
              addressing water quality programs. The Act’s
              objective is to restore and maintain the quality of the
              nation’s surface waters. CWA requires states to adopt

                       1                          Report No.1999-1-00225
water quality standards. These standards are an
important basis for state actions to control and remedy
water pollution.

States classify the state waters according to how the
water can be used, such as for drinking water supply,
fishing, and swimming. Once the water use
classification is set, the Act requires the state to
develop water quality criteria for that use.

In addition, states are required to review their water
quality standards once every three years and obtain
EPA approval for the standards. EPA is required to
promulgate water quality standards for the state if EPA
disapproves a state’s water quality standards. The
state’s water quality standards remain in effect unless
EPA promulgates standards for the state.

States are also required to develop a monitoring
program to assess whether the state’s waters meet the
water quality standards. The state water quality
monitoring program generates important information
necessary to guide management decisions and track
environmental progress.

CWA requires each state to submit to EPA a biennial
water quality assessment report summarizing its water
quality assessments. EPA summarizes the state reports
in a national report to Congress. EPA uses the state
water quality assessments to measure performance in
achieving its goal of clean and safe water.

If a water body does not meet its water quality
standards, the state classifies the water body as
impaired and determines the cause of impairment, and
develops controls to correct the impairment.


Appendix 1 provides a more detailed background of
the program.


         2                          Report No.1999-1-00225
SCOPE AND     We performed our audit in accordance with
METHODOLOGY   Government Auditing Standards (1994 revision) issued
              by the Comptroller General of the United States as
              they apply to program audits. Our review included
              tests of the program records and other auditing
              procedures we considered necessary. We conducted
              our fieldwork from March through December
              1998. We performed our fieldwork at Region 2 in
              New York, New York and at the New Jersey
              Department of Environmental Protection in Trenton,
              New Jersey.

              We reviewed the Clean Water Act, the Code of
              Federal Regulations, the Water Quality Standards
              Handbook, guidance for Section 106 of the Clean
              Water Act, Monitoring Strategy Guidance, Guidelines
              for Preparation of 1996 State Water Quality
              Assessments (305(b) Reports), and New Jersey’s laws
              and regulations applicable to its water quality program.

              Also reviewed was correspondence between EPA and
              New Jersey applicable to water quality standards,
              triennial reviews, planning documents, and reports
              required under Sections 305(b) and 303(d) of the
              CWA.

              We reviewed internal controls and procedures
              specifically related to our objectives. Although
              information was used from Region 2's Permit Control
              System, we did not review the controls associated with
              the input and processing of information into this
              system. We also reviewed the Region’s assurance
              letters for Fiscal Years 1997 and 1998 that were
              prepared to comply with the Federal Managers’
              Financial Integrity Act. None of the issues cited in this
              audit were disclosed in these letters.

              Due to the complexity of some water quality issues, we
              obtained technical assistance from the OIG
              Engineering and Science Staff. This technical
              assistance included: (1) a comparison of New Jersey’s

                        3                         Report No.1999-1-00225
                       water quality criteria to EPA’s criteria; (2) an analysis
                       of data from New Jersey’s monitoring stations; and, (3)
                       a review of the pollutants identified in the Permit
                       Control System as contained in New Jersey’s pollution
                       discharge permits.

                       Our audit disclosed areas needing improvement that
                       are discussed in Chapters 2 through 5. However these
                       findings do not necessarily represent the final EPA
                       position, and are not binding upon EPA in any
                       enforcement proceeding brought by EPA or the
                       Department of Justice.

PRIOR AUDIT COVERAGE   No recent OIG audits have been conducted of the New
                       Jersey water quality program. OIG’s Central Audit
                       Division (CAD) issued an audit report, Missouri’s
                       Water Quality Standards and Monitoring (Report No.
                       8100080) on March 31, 1998. Our assignment is
                       considered a follow-on audit to CAD’s work.




                   CHAPTER 2
    NEW JERSEY’S WELL STRUCTURED STATE WATER
     QUALITY PROGRAM COULD BE STRENGTHENED

                                 4                         Report No.1999-1-00225
                                Overall, New Jersey has established a comprehensive
                                water quality program that generally protects its
                                surface water to sustain human health and aquatic life.
                                However, while NJDEP had developed water quality
                                standards and successfully completed its triennial
                                review requirements, the standards had not been
                                approved for over four years. Also decreased funding
                                has affected the State’s ability to accomplish all
                                aspects of that program. by diminishing monitoring
                                activities and water sampling activities. As a result, all
                                of the State’s waters are not evaluated. In addition,
                                there is reduced assurance that all water quality issues
                                are being addressed.


COMPREHENSIVE                   New Jersey has implemented procedures to develop
STANDARDS DEVELOPED             comprehensive water quality standards to protect the
BUT NOT TIMELY                  State’s water quality. Numerical criteria have been
APPROVED                        adopted for priority pollutants and triennal reviews
                                have been conducted. In addition, the State has been
                                proactive in developing water quality criteria for
                                certain pollutants for which EPA has not yet issued
                                national quality criteria recommendations. However,
                                the State’s standards have not been approved for more
                                than four years because of an inability by the Region
                                and the U.S. Fish and Wildlife Service (FWS) to
                                resolve endangered species issues. Federal and State
                                officials have since agreed to an approach on the
                                establishment of certain wildlife criteria. As a result,
                                while the State’s standards are appropriate, EPA

                                could face legal ramifications if the standards were
                                approved without the resolution of the endangered
                                species issues.

Priority Pollutants Addressed   The State of New Jersey has adopted numerical criteria
                                for most, but not all, of the CWA 304(a) priority
                                pollutants, and expresses an intent to utilize several
                                bioassay methods in determining discharge limitations.
                                Most, but not all, of the pollutants listed have State
                                criteria slightly more stringent than the Federal criteria.

                                          5                           Report No.1999-1-00225
The State has additionally adopted numerical criteria
for multiple toxics not listed in CWA as either priority
or nonpriority pollutants. State regulations list both
human health and aquatic life criteria, and provide a
rationale, based on sampling, use of bioassay data, and
research of available scientific literature, by which
criteria are developed. The State lists criteria for
carcinogenic pollutants on the basis of stated excess
lifetime cancer risk.

CWA section 303(c)(2)(B) requires states to adopt
specific numerical criteria for toxic pollutants which
could reasonably be expected to interfere with
designated uses adopted by the state. Whenever
numerical criteria are not available, states must adopt
criteria based on biological monitoring or assessment
methods consistent with CWA section 304(a)(8). EPA
attempted to provide the states with maximum
flexibility that complied with the express statutory
language but also with the overriding Congressional
objective: prompt adoption and implementation of
numeric toxics criteria. Consequently, if a pollutant is
not present in state waters, or if the state expects a
pollutant not to interfere with the designated use, then
section 303(1)(2)(B) does not require a numeric
standard for that pollutant.

EPA lists 126 compounds as priority toxic pollutants
pursuant to CFR part 131.36. Of these NJDEP has
criteria for monitoring 93 of these pollutants. Of the
remaining 33 pollutants, 26 are not included in
NJDEP’s list and NJDEP reserved the issuance of
criteria for 7 pollutants. According to NJDEP,
“reserved” indicated that the Department was
developing criteria for proposal for those pollutants.
The reserved criteria are currently undergoing
stakeholder discussions.

In addition, NJDEP’s list contained criteria for 29
substances not included as part of the EPA list of 126
priority toxic pollutants. The EPA Standards

          6                         Report No.1999-1-00225
                              Coordinator provided us with a January 1995 non-
                              priority pollutant chart which included 20 of these
                              substances. The State adopted criteria for the other
                              nine including such substances as benz(a)anthracene
                              and bromodichloromethane.

Triennial Reviews Conducted   NJDEP has successfully completed its triennial review
                              requirements. The Department revised its Surface
                              Water Quality Standards in April 1994 and submitted
                              these revisions to EPA on August 4, 1994. These
                              standards were readopted by the State effective
                              January 18, 1996.

                              In addition to adopting water quality standards into
                              law, the CWA requires each state to: (a) hold public
                              hearings at least every three years to review the
                              standards; and, (b) submit the results to the EPA
                              Administrator. The purpose of these “triennial
                              reviews” is to determine the need for additional
                              standards or for the revision of existing standards.
                              Thus if hearings are not held and standards not
                              reviewed, the public and EPA have less assurance as to
                              the adequacy of State water quality standards.

                              NJDEP did not wait three years between reviews, but
                              rather, in the interim, reviewed its standards and
                              discussed proposed changes with the Region. For
                              example, EPA’s August 1, 1996 and November 22,
                              1996 letters recommended that NJDEP incorporate a
                              more comprehensive policy with respect to mixing
                              zones in its next revision of the New Jersey Surface
                              Water Quality Standards (NJSWQS). The November
                              1996 letter also indicated that EPA and NJDEP agreed
                              in the 1997 Performance Partnership Agreement that
                              the State’s triennial water quality standards
                              review/revision process would be completed in State
                              Fiscal Year 1997 (July 1, 1996 to June 30, 1997).

                              The State’s current revision process was separated into
                              two phases. Phase 1 consisted of readopting the
                              existing standards with changes for consistency with

                                       7                         Report No.1999-1-00225
                              New Jersey Permit Discharge Elimination System
                              Rules, reclassifications of selected waters and
                              correction/clarification of rule language. The
                              NJSWQS were adopted on April 17, 1998. Phase 2
                              with more substantial revisions is scheduled to be
                              completed in December 1999 as part of the current
                              triennial review process.

1994 Standards Not Approved   However, while the process has been in place to
                              develop and adopt water standards, delays have
                              occurred. After more than four years, Region 2 had
                              not approved NJDEP’s August 4, 1994 submittal of the
                              revised NJSWQS. During that time frame, Region 2
                              and FWS were working to reach an agreement as to
                              how best to address the complex issues raised by FWS.
                              As a result, approval was not provided within the
                              required time frame. In addition, the Region could
                              face legal ramifications if it approved the NJSWQS
                              without including the proposed revisions.

                              CFR part 131.21 states that after the state submits its
                              officially adopted revisions to the water quality
                              standards, the Regional Administrator shall either:

                              1.     Notify the state within 60 days that the revisions
                                     are approved.
                               2.    Notify the state within 90 days that the
                                    revisions are disapproved.

                              In April 1994, NJDEP issued its revised Surface Water
                              Quality Standards and submitted them to EPA on
                              August 4, 1994. EPA could not provide the State with
                              an official decision until completion of informal
                              consultation with the FWS and National Marine
                              Fisheries Service pursuant to Section 7 of the
                              Endangered Species Act of 1973 (ESA), and the July
                              27, 1992 Memorandum of Understanding between EPA
                              and FWS. However, EPA’s review found that, with the
                              exception of the State’s human health-based
                              polychlorinated biphenyl (PCB) criteria, the State’s
                              revisions were approvable pursuant to CWA section

                                       8                           Report No.1999-1-00225
303.

The major issue hindering EPA’s ability to reach a final
agreement with FWS was the establishment of wildlife
criteria for PCBs, p,p’-Dichloridiphenyltrichlorethane
(DDT), and mercury. Discussions were held between
the agencies for almost four years. Finally, EPA in a
May 28, 1998 letter stated that FWS and EPA agreed to
the following amended terms and conditions to be
adopted by NJDEP as part of the current triennial
review/revision process. This is scheduled to be
completed in December 1999.

•      Prohibiting mixing zones in areas with
       documented occurrences of the dwarf wedge
       mussel.

•      Revision of the antidegradation policy to provide
       protection for federally listed threatened and
       endangered species.

•      Establishment of wildlife criteria for PCBs, DDT
       and mercury at levels that will minimize adverse
       effects on the bald eagle and peregrine falcon.

The letter concluded that the final resolution of FWS’s
concerns and EPA’s subsequent approval of the 1994
standards will require NJDEP’s formal commitment to
make these revisions. Also NJDEP must participate in
the joint effort to develop and adopt numeric wildlife
criteria for which FWS accepted the lead role.

There were legal ramifications relative to the ESA
issue. A 1994 Regional opinion noted that if EPA
approved the NJSWQS without implementing all of
FWS’s proposed measures, the EPA approving official
(i.e. Regional Administrator) could be held legally
liable if the death of any endangered/threatened species
could be attributed to EPA’s action on the NJSWQS.

While EPA has not approved the 1994 standards, the

          9                          Report No.1999-1-00225
                      1998 NJSWQS were adopted April 17, 1998 with the
                      amendment published in the New Jersey Register on
                      May 18, 1998.

MONITORING PROGRAM    New Jersey has made a good effort to monitor its
NEEDS TO ASSESS ALL   water quality, but could improve its process to test and
WATERS                assess its waters. New Jersey needs to increase the
                      number and frequency of sites tested annually. Federal
                      regulations require states to test and assess all their
                      waters. However, New Jersey did not have a strategy to
                      comprehensively evaluate all its waters. State officials
                      stated that this occurred because of budgetary
                      limitations. As a result, New Jersey did not know the
                      quality of all its waters.

Monitoring Network    In 1976, NJDEP established an Ambient Surface
                      Monitoring Network to determine the status and trends
                      of the State’s ambient surface waters. The network’s
                      original configuration was 200 stations, but was
                      reduced to 78 by the mid 1990's. In 1997, there was a
                      complete revision of the network which increased the
                      surface water monitoring stations to 115. NJDEP also
                      utilized 771 biological stream monitoring stations and
                      22 changing ground water locations.

                      Further, NJDEP’s FY 1997 Performance Partnership
                      Agreement notes that only 3,815 of 6,450 State stream
                      miles have been assessed for biological impairment. Of
                      these, 35 percent support the aquatic life designated
                      use, 52 percent partially support the use, and 13 percent
                      do not support the use. NJDEP’s 1998 Water Quality
                      Monitoring Network report also noted only 116 of 380
                      public lakes had been evaluated for trophic
                      status/recreational water quality impairment (The
                      condition of the State’s lakes is detailed in Chapter 4).

                      The revised network was specifically designed to
                      address the needs of the State’s 20 watershed
                      management areas (which comprise five water regions),
                      the functional units for the Watershed Initiative. A


                               10                          Report No.1999-1-00225
                           major objective of the network redesign was to
                           coordinate water chemistry and biological databases.
                           Completing this task supports priority initiatives, such
                           as the National Environmental Performance Partnership
                           System (NEPPS), in which biological databases are of
                           increasing importance. New Jersey is one of a growing
                           number of states to utilize biological monitoring.

                           New Jersey has a draft 10 year implementation plan and
                           schedule of watershed management activities on a
                           targeted and cyclical basis. The plan is awaiting public
                           comment before submittal for Regional review. The
                           plan calls for preliminary characterization and
                           assessment of each of the watershed areas during the
                           first two years. By year five, all water regions are
                           expected to have permitting cycles. By year six, total
                           maximum daily loads (TMDLs) will be issued for
                           impaired waterways.

Decreased Water Sampling   New Jersey has decreased the frequency of its water
                           sampling from five to four times a year. Metals,
                           pesticides, volatile organic carbons, and sediments were
                           monitored on the reduced sampling frequency.

                           NJDEP officials stated that the change in sampling
                           frequency was not made arbitrarily. They had
                           performed a statistical evaluation of the two sampling
                           frequencies based upon historical nationwide ambient
                           data and determined that the reduced sampling
                           frequency could be made without sacrificing data
                           quality or representativeness.

                           We believe that while NJDEP’s approach is not
                           unreasonable considering resource constraints, it still
                           provides less sampling than was previously conducted.
                           NJDEP needs to maximize use of its limited resources
                           to increase the number and frequency of sampling
                           activities.

Limited Resources Affect   Budgetary constraints have adversely affected
Program                    NJDEP’s water quality monitoring program. Decreased

                                    11                         Report No.1999-1-00225
             funding has reduced assigned staff and the amount of
             water monitoring NJDEP accomplished. NJDEP
             officials informed us at the entrance conference that
             there was not enough money in their budget to evaluate
             all the State’s waters. For example, a State report on
             marine and coastal water quality for the period 1990-
             1993 stated that no data was collected in 1992 because
             of funding constraints. In addition, no toxic studies
             were conducted for the period because of the monetary
             situation.

             NJDEP’s operating budget showed a trend of decreased
             funding for State Fiscal Years (SFY) 1995 through
             1998. For example, NJDEP’s budget was reduced from
             approximately $193.5 million in FY 1995 to $175.6
             million in FY 1997. In addition, NJDEP in FY 1996
             decreased weekly workhours from 40 to 35 for 1,800
             employees.

             The Region also noted that a lack of staffing was
             affecting NJDEP’s quality assurance program. DECA’s
             SFY 1997 Quality Assurance Management Systems
             Review found inadequate staffing at NJDEP’s Office of
             Quality Assurance (OQA). The review concluded:

                    Many of the responsibilities of the OQA are
                    going unfulfilled because there are inadequate
                    staff resources to complete the tasks.

CONCLUSION   New Jersey had established a structured water quality
             program. Procedures had been implemented to develop
             comprehensive water quality standards. In addition, the
             State had made a good faith effort to monitor its water
             bodies. However, the program was curtailed because of
             budgetary constraints. NJDEP had not assessed many
             of its fresh water streams and was not
             aware of the water quality in most of its lakes, although
             it was aware that many were polluted.

             Opportunities existed to improve the overall program.
             NJDEP needed to provide more resources to increase

                      12                          Report No.1999-1-00225
                    the number and frequency of sites tested. Also, the
                    Region needed to assure the timely approval of
                    proposed State water quality standards. In the future,
                    Region 2 must act more expeditiously and become
                    involved earlier in the process to avoid prolonged
                    delays in approving the NJSWQS.

RECOMMENDATIONS     We recommend to the Regional Administrator that the
                    Region:

                    Work with NJDEP to maximize the use of available
                    resources to increase the number and frequency of sites
                    tested annually, as well as develop a strategy to
                    comprehensively evaluate all its waters.

REGIONAL COMMENTS   The Region described the complex endangered species
                    issues that had hindered its ability to reach final
                    agreement with FWS and take action on the 1994
                    NJSWQS. The Region indicated that EPA, FWS, and
                    NJDEP have agreed upon an approach to address all
                    concerns raised by FWS. On April 23, 1999 the first
                    joint agencies meeting was held and additional meetings
                    are planned. The Region also noted that while there
                    were potential legal ramifications, EPA made a policy
                    decision to complete the ESA process prior to issuing a
                    NJSWQS decision. Finally, the
                    Region suggested we delete the first recommendation in
                    the draft report based on the actions taken and
                    scheduled.

                    With regard to triennial reviews, the Region pointed out
                    its August 1, 1996 letter was in response to proposed
                    water standards provisions published by New Jersey on
                    February 5, 1996. The Region’s November 23, 1996
                    letter occurred after the State withdrew the proposed
                    standards and was intended to provide a framework for
                    the State’s subsequent standards revision.

                    Region 2 agreed that the water quality of all New Jersey
                    waters need to be evaluated. The Region has proposed
                    that NJDEP incorporate into its surface water

                             13                          Report No.1999-1-00225
                   monitoring network a type of sampling that allows an
                   assessment with known confidence of the quality of all
                   State waters by sampling only a portion of these waters.
                   This type of sampling design would use statistical
                   methods to locate sampling sites. NJDEP is evaluating
                   this suggestion under a FY 1998 Regional Geographic
                   Initiative grant awarded by the Region.

NJDEP’s COMMENTS   The State also presented comments similar to the
                   Region’s on the ESA issues. It noted that its
                   commitment to participate in resolving the problem was
                   contained in a February 18, 1999 letter sent to the
                   Region.

                   NJDEP disagreed that it was not meeting the intent of
                   the CWA for the testing and assessing of all state
                   waters. It contended that the results of its network
                   more than adequately met the State’s obligations under
                   Federal regulations. A 115 station network was
                   maintained, which was recently redesigned to
                   incorporate quarterly physical/chemical monitoring at
                   two randomly selected stations in each of the 20
                   watershed management areas. The intention was to
                   allow the statistical application of the results over the
                   entire watershed management area.

                   Further, NJDEP’s decision to change the sampling
                   frequency from five to four times a year was not made
                   arbitrarily. NJDEP in cooperation with the U.S.
                   Geological Survey performed a statistical evaluation of
                   the two sampling frequencies based upon historical
                   nationwide ambient data. NJDEP stated that the
                   reduced sampling frequency could be made without
                   sacrificing the quality or representativeness of the
                   resulting data. While more network stations would be
                   desirable, NJDEP believes it has a strategy in place to
                   comprehensively evaluate all waters, within currently
                   available revenues.

                   NJDEP also noted that the five year monitoring strategy
                   applied only to the biological monitoring network and

                             14                          Report No.1999-1-00225
               not the surface water physical/chemical one. It further
               indicated that while water column metals monitoring
               did decrease, samples of sediments, pesticides, and
               volatile organic carbons increased.

               Finally, while NJDEP generally agreed with our
               assessment about how decreased funding had affected
               the State’s monitoring activities, it indicated a recent
               increase in funding commitment to the ambient network
               and for watershed monitoring.

OIG COMMENTS   Both the Region and NJDEP provided additional
               information and clarifications regarding standard
               approval, priority pollutants, triennial reviews, and
               water quality monitoring.

               In addition, we deleted our original recommendation 2-
               1 which called for the parties to make a concerted effort
               to make the revisions outlined in the Region’s May 28,
               1998 letter. Both the Region and NJDEP have stated
               that they are working toward that end.

               New Jersey needs to have a strategy that evaluates the
               water quality of all its waters; a concept to which
               Region 2 agrees. As stated in the narrative above, we
               believe that NJDEP could improve its monitoring by
               increasing its sampling. NJDEP states that it has a
               strategy that uses randomly selected stations to sample,
               supported by a statistical evaluation of old and new
               sampling frequencies.

               The use of such a random sampling approach is not
               unreasonable when there are resource constraints.
               However, we believe that a major purpose of a state-
               wide sampling network is to evaluate water quality by
               observing, for a given location, how the water quality
               changes over time. Evaluation of changes for a location
               requires consistent measurement over time from the
               station serving this location. Random selection of
               sampling locations makes this type of evaluation
               impossible. While it provides a representative picture

                         15                          Report No.1999-1-00225
                              at a particular time, it does not give a progression of
                              water quality at a specific location. Thus it does not
                              allow for a comprehensive proactive approach to
                              correcting diminishing water quality, only a reaction to
                              diminished quality in areas that, by chance, are selected
                              for measurement at a given time.




                             CHAPTER 3
          REPORTING PROCESS NEEDS IMPROVEMENT

                              New Jersey needed to improve the timeliness of its
                              reporting. Water quality reports were not complete and
                              accurate because they did not include all State waters.
                              In addition, both reports and impaired water lists were
                              issued as much as two years late. Also, few pollution
                              limits to correct the impairments were developed. The
                              primary causes of the untimeliness included a lack of
                              resources, the nonapproval of water standards, and the
                              nonuse of a data system. As a result, decision makers
                              lack accurate data to guide efforts to protect water
                              resources.

305(b) Reports Issued Late    NJDEP’s biennial water quality assessment reports
                              (305(b) reports) were issued consistently late. The
                              1996 report was issued two years after its due date and

                                       16                          Report No.1999-1-00225
the 1998 report was expected to be at least a year late.
In addition, the reports were not complete since, as
previously mentioned, all waters were not evaluated.

305(b) reports provide extremely important information
to EPA and the public about the environmental
conditions of specific water bodies, as well as
cumulative state, regional and national assessments.
The 305(b) report provides a method for EPA and
Congressional decision makers to assess monitoring
data in a meaningful way and use the information to
guide efforts to protect water resources.

The 1996 NJDEP 305(b) report was issued in April
1998, two years after its due date to Congress (April 1,
1996). Regional officials stated that NJDEP was late
because:


       •        They had been historically untimely in
                issuing this report.
       •        They lacked sufficient resources assigned
                to this activity because they had focused
                on resolving 303(d) list problems.
       •        They have had problems getting their
                water quality standards approved.
       •        They did not use the Water Body System
                database (now called the Assessment Data
                Base) to transmit monitoring information
                to the EPA contractor, thus making it
                impossible for the contractor to retrieve
                data necessary for the consolidated report
                to Congress.

Similarly, the 1998 report, which was due to Congress
on April 1, 1998, was not expected to be issued until
May or June 1999, a delay of over one year.

Untimely 305(b) report submissions are a nationwide
concern. EPA Headquarters issued a January 9, 1998
memorandum to all regions requesting that Section 106

           17                         Report No.1999-1-00225
                           grants or Performance Partnership Grants (PPG)
                           containing 106 funds be conditioned upon the
                           submission of timely 305(b) reports. The Region
                           emphasized this issue to NJDEP in an April 24, 1998
                           letter in which it stressed that sufficient resources
                           should be allocated to ensure a timely report.
                           Headquarters later reported that as of the end of August
                           1998, it had received 19 final 1998 reports and 20 draft
                           reports or data files. New Jersey was not among these
                           submitters.

303(d) Lists Also Issued   NJDEP’s biennial lists of impaired water bodies
Late                       (303(d) lists) were also untimely. These lists
                           contain possible impaired waters that will not be
                           accessible within two years. For example, the State’s
                           last three lists all missed the deadline:




                           List          Due Date      Date Issued Months Late
                           1994          4/1/94        7/28/96         28
                           1996          4/1/96        1/31/97         10
                           1998          4/1/98        9/15/98          5

                           NJDEP officials stated that they were undergoing an
                           internal review and retesting impaired waters on the
                           303(d) list to determine if the initial impairments were
                           still valid. The reviews were also being conducted
                           because of ongoing national litigations relative to the
                           303(d) list.

                           To be more comprehensive in its presentation, NJDEP
                           added valuable information to its 1998 list. NJDEP
                           divided its list of waters into three appendices,
                           organized according to data source and degree of
                           confidence in the assessment of impairment. There
                           were also long-term, ten year schedules for TMDL
                           development for the impaired waters on the list.

Few TMDLs Issued           NJDEP had issued only two TMDLs which were

                                    18                          Report No.1999-1-00225
approved more than 10 years ago. The State agency
had been focusing on water treatment plants and had
de-emphasized the use of TMDLs. In addition, EPA
had not been aggressive in seeking TMDL
development. As a result, actions to correct water
quality deficiencies have been delayed.

CWA Section 303(d) requires the states to list impaired
water bodies. The impaired water body list is used to
schedule water bodies for developing total maximum
daily loads, which are calculations to limit or control
pollutant discharges to restore the water quality. CFR
part 130.7, Total maximum daily loads (TMDL) and
individual water quality-based effluent limitations,
requires states to identify all impaired water bodies
where existing pollution control requirements are not
stringent enough to achieve the water quality standards.
To develop the list, each state is required to use all
existing and readily available water quality related data,
including the water quality assessment report.

As of July 1998, NJDEP had approved only two
TMDLs: Passaic River (1987) and Upper Millstone
(1988). The Assistant Administrator, NJDEP Office of
Environmental Planning (now part of the Division of
Watershed Management) stated that NJDEP had
“dropped the ball” with respect to TMDLs. He
indicated that NJDEP focused on treatment plants and
de-emphasized TMDLs. He further stated that it was
not until EPA became involved with nationwide
litigation that any Federal mandate for TMDL
development occurred.

The Region 2 TMDL Coordinator stated that Region 2
did not have authority over the number of TMDLs the
State issued. She stated that EPA’s only authority was
for approval/disapproval. She further stated that she
was unsure whether NJDEP’s TMDLs were consistent
with EPA’s current water quality criteria since the last
one was reviewed in 1988.


          19                          Report No.1999-1-00225
The EPA Assistant Administrator for Water issued an
August 8, 1997 memorandum, “New Policies for
Establishing and Implementing Total Maximum Daily
Loads (TMDLs)” which stated in part:

      I ask each of you to work closely with each State
      in your Region to help the State water program
      director and staff fulfill the requirements of
      section 303(d) and EPA’s implementation
      regulations and successfully achieve the goals of
      the TMDL program ...

      States have primary responsibility for developing
      lists and TMDLs ... and the implementing
      regulations ... provide States with

      latitude to determine their own priorities for
      developing and implementing TMDLs ...

      I ask each of you to discuss with each State
      water program director the importance of an
      overall schedule and plan for establishing
      TMDLs for all listed waters, and to reach
      agreement by October 1, 1997 on the best
      process for developing appropriate schedules.

Region 2 worked with NJDEP to establish a 10-year
schedule beginning in 1997. For example, during the
first year, NJDEP started assessing monitoring data and
developing models for NY/NJ Harbor, Delaware
Estuary, and Whippany River Watershed Project
including water segments. These were chosen because
they were ranked as high priority waters on both the
1996 and 1998 303(d) lists. NJDEP also planned to
start monitoring in support of TMDL development or
parameter delisting for the Maurice River Watershed
and segments of the Whippany River Watershed
Project.

By 2007, the State anticipated that TMDLs for each
pollutant will have been developed to cover 14 water

         20                          Report No.1999-1-00225
                       bodies listed in the 1998 303(d) list. It should be noted
                       that these water bodies can have many segments and
                       many different pollutants and therefore considerably
                       more than 14 TMDLs will have to be developed and
                       approved.

Use of STORET System   The STORET (STOrage and RETrieval) system was
Could Be Improved      not always used and when it was, there was difficulty in
                       its operation. The system was developed for the states
                       to use after field data was collected. However, the
                       States found the system clumsy and not user friendly.
                       NJDEP officials agreed with that assessment.

                       In addition, according to a Headquarters Office of
                       Water official, Region 2 and many other regions did not
                       use STORET even though it is the EPA database to
                       record water quality test results. The Region 2
                       Monitoring Operations Section Chief agreed, but noted
                       that State information input is used to generate the
                       305(b) report.

                       A new modernized STORET system was developed and
                       implemented in late 1998. It provided a flexible, PC-
                       based, user-friendly, quality-assured database. This
                       system corrected many difficulties the State users
                       encountered. However, NJDEP officials stated that
                       they did not receive adequate assistance from Region 2.
                       They found a lack of Regional resources and concern
                       for implementing the system. NJDEP had to seek
                       guidance from Headquarters and Region 3 personnel.
                       For example, NJDEP attended a Region 3 training
                       course on the new system, since Region 2 did not offer
                       one. However, because Region 3 States were given
                       higher priority for the limited space, NJDEP was only
                       able to obtain one slot.

                       This lack of coordination with Region 2 may have
                       occurred because the Region did not have someone
                       designated to handle STORET. The Region had not
                       made STORET a high priority. Previously the Region
                       had two full time employees working on the system, but

                                21                          Report No.1999-1-00225
                    budget constraints reduced this to one part time
                    employee. We attempted to discuss the State’s
                    concerns with Regional staff, but the Region had no one
                    assigned as a STORET liaison.

CONCLUSION          Water quality reports were not complete, accurate or
                    timely. In addition, few TMDLs were developed to
                    address impaired waters. The Region needs to continue
                    to work with NJDEP so that the State agency can
                    facilitate the issuance of TMDLs, and accelerate water
                    assessment and impairment report issuance.

RECOMMENDATIONS     We recommend to the Regional Administrator that the
                    Region:

                    3-1. Continue to work with the State to improve its
                    timeliness for issuing reports and the impaired water’s
                    list.

                    3-2. Continue the process of reviewing the 303(d) list
                    by comparing information from prior lists and reports.

                    3-3. Periodically review and monitor NJDEP’s
                    accomplishment of the 10-year TMDL schedule to
                    assure that the State is achieving its commitments.

                    3-4. Provide adequate assistance to NJDEP by means
                    of formal training and technical assistance for the new
                    STORET system. The Region should designate a staff
                    person/liaison to regularly help NJDEP personnel,
                    especially during the new system’s transition phase.

                    3-5. Reevaluate the priority and resources provided to
                    STORET.

REGIONAL COMMENTS   The Region provided additional information about the
                    status of the 1998 305(b) report. NJDEP submitted the
                    draft report on January 15, 1999. The Region
                    completed its review and issued comments to NJDEP
                    which are being considered for the final report which is
                    expected in June 1999. This date was agreed upon in

                             22                          Report No.1999-1-00225
the State FY 1999 Performance Partnership Agreement
(PPA) and included as a special Performance
Partnership Grant (PPG) grant condition.

Based upon recent PPA negotiations, the 2000 305(b)
report will be submitted in draft in April 2000 and final
in June 2000. This moves NJDEP very close to the
statutory deadline (April 1, 2000). In addition, the data
necessary for the 2000 National Report to Congress will
be transmitted electronically in October 1999.




The Region noted NJDEP is working cooperatively
with the EPA contractor in streamlining and improving
NJDEP’s ability to transmit data using the Assessment
Data Base.

Concerning TMDL development, the Region had
persistently sought such action via meetings, annual
program performance reviews, and correspondence to
NJDEP requesting that it develop a comprehensive
TMDL program and submit TMDLs. Although a few
TMDLs were developed, many water quality-based
permits were issued and nonpoint source reduction
plans put in place across the State. The Region also
indicated that it established TMDLs for the NY-NJ
Harbor for copper and mercury and will be establishing
a nickel TMDL for the Hackensack River in the
summer of 1999. All these actions resulted in
improvements in water quality.

The Region then provided in its response a copy of a
May 1999 Memorandum of Agreement which has a
schedule for the establishment of TMDLs for all 303(d)
listed waters. Additionally, EPA recently provided
$200,000 in contractor assistance to NJDEP for the
development of pathogen and nutrient TMDLs.

Finally, the Region noted the difficulties with the old

         23                          Report No.1999-1-00225
                   STORET system and the improvements the new system
                   provides. During the summer, the Region will conduct
                   training on this new system and then fully implement it
                   to support programmatic activities, as well as provide
                   technical support to states and local agencies.

NJDEP’s COMMENTS   The State generally agreed with the 303(d) and 305(b)
                   timeliness findings in the draft report. The response
                   stated that there were several contributing factors
                   including a major NJDEP reorganization from media-
                   based to a functional organization, significant
                   expansion of the 303(d) list to include all impaired
                   water bodies, and the policy issues surrounding this
                   addition. NJDEP noted there was significant
                   improvement in the timeliness of the 1998 303(d)
                   submittal. NJDEP has also increased the FTEs
                   dedicated to 303(d) and 305(b) activities from 0.75 to
                   1.5. Two additional FTEs are expected to be available
                   by December 1999.

                   NJDEP disagreed that 305(b) reports were inaccurate.
                   It stated that available data were assessed to the extent
                   possible and results of these assessments were
                   accurately conveyed in the reports. Although NJDEP
                   does not assess 100 percent of its waters through
                   monitoring or evaluation, all major waters and many
                   smaller streams are assessed through monitoring.
                   NJDEP agreed that the 305(b) reports should more
                   closely convey the spatial extent and level of detail of
                   assessments. These concerns have been addressed in
                   the 1998 Water Quality Inventory Report.

                   With regard to TMDLs, NJDEP provided a lengthy
                   discussion on its water quality activities over the past
                   decade, its move towards a watershed approach, and the
                   effect on TMDL development. Further, NJDEP
                   indicated that it is EPA’s statutory responsibility to
                   develop TMDLs wherever states do not take action
                   themselves and that the Region had not taken much
                   action in this regard.


                             24                          Report No.1999-1-00225
               NJDEP also discussed the TMDL MOA described in
               the Regional comments above. In addition, NJDEP is
               working with the Region to develop new 303(d) and de-
               listing procedures that respond to these issues and the
               needs of New Jersey’s waters and watersheds. It is
               confident with the renewed partnership effort that
               significant progress will be made.

               Finally, NJDEP would welcome whatever additional
               support and assistance Region 2 could provide in
               making the utilization of STORET a success both
               within the Department and with NJDEP’s partners.

OIG COMMENTS   Both NJDEP and the Region have taken positive steps
               to strive to achieve more timely 305(b) report and
               303(d) list submissions. It is anticipated that these
               actions will move NJDEP very close to meeting the
               2000 statutory deadline, which is an improvement over
               the last three submissions.

               However, concerning the complete accuracy of the
               305(b) reports, we disagree with the State’s position.
               While we agree as NJDEP states that “available data
               were assessed to the extent possible and results of these
               assessments were accurately conveyed in the reports,”
               by not assessing all the State’s waters a complete and
               accurate picture of the State’s entire water quality is not
               provided to the public.

               The Region and NJDEP disagree somewhat with each
               other over who should have taken more aggressive
               action in addressing the ten-year lull in TMDL
               issuance. The Final Report of the Federal Advisory
               Committee on the TMDL Program ( issued July 28,
               1998) noted that states were required to establish
               TMDLs for waterbodies where water quality standards
               are met. The Report also stated that if state actions
               were not adequate, EPA must prepare TMDLs. The
               August 8, 1997 guidance also stated that states have
               primary responsibility for developing lists and TMDLs
               under Section 303(d) and if a state fails to meet its

                         25                          Report No.1999-1-00225
obligations, the regions need to step in.

Regardless of who should have taken action, the TMDL
MOA issued in May 1999 is a positive step to improve
the State’s water quality. We are encouraged by the
confidence both parties have expressed that this
renewed partnership effort will bring significant
progress.

Finally, we applaud the actions being proposed to
provide additional support for the utilization of the new
STORET system.




          26                          Report No.1999-1-00225
                CHAPTER 4
           LAKES NEED MORE ATTENTION


                  New Jersey has inadequate monitoring and assessment
                  of lake conditions in the State. More than two-thirds of
                  the public lakes have not been tested and more than 97
                  percent of those tested were found to be eutrophic. The
                  limited attention to lakes has occurred for several
                  reasons: (1) the State has concentrated many of its
                  monitoring and assessment resources on coastal waters
                  and rivers; (2) EPA has provided less funds; and (3)
                  EPA guidance has been less intensive for lakes. As a
                  result, New Jersey lakes were found to be in poor
                  condition and there was no assurance that lake water
                  quality issues will be adequately addressed.

Criteria          CWA section 101 requires Federal and state
                  governments to “restore and maintain the chemical,
                  physical and biological integrity of the Nation’s
                  waters.” 40 CFR part 130.4 requires states to establish
                  monitoring methods and procedures (including
                  biological monitoring) necessary to compile and
                  analyze data on the quality of waters.

                  CFR part 130.7(b)(4) requires states to identify the
                  pollutants causing or expected to cause violations of the
                  applicable water quality standards. Part 130.7(b)(5)
                  requires each state to actively solicit, assemble and
                  evaluate all existing and readily available water quality-
                  related data and information. Potential sources of data
                  and information listed include local, state and Federal
                  agencies, members of the public, and academic
                  institutions.


                  CFR part 130.8(b)(5) indicates that the state’s 305(b)
                  report must include a water quality assessment of all

                            27                          Report No.1999-1-00225
                          publicly owned lakes, including water quality status and
                          trends.

                          40 CFR 31.40 requires recipients of Federal funds to
                          monitor activities to assure compliance with applicable
                          Federal requirements and that performance goals are
                          being achieved. Grantee monitoring must cover each
                          program, function or activity.

                          In February 1998, EPA issued the “Clean Water Action
                          Plan,” as mandated by Vice President Gore. The Plan
                          requires states to make a “Unified Watershed
                          Assessment” by October 1998. According to Region
                          2's Lakes Coordinator, lakes are part of watersheds, and
                          should not be overlooked.

Lakes in Poor Condition   More than 97 percent of New Jersey’s lakes that were
                          tested (113 of 116) were found to be eutrophic.
                          Eutrophic means that the increase of mineral and
                          organic nutrients has reduced the dissolved oxygen,
                          producing an environment that favors plant over animal
                          life. The last round of Statewide sampling was
                          concluded in 1992. At that time parameters were
                          sampled associated with lake trophic analysis: nutrients,
                          dissolved oxygen, pH and algal identification of
                          chlorophyll a. The Executive Summary of New
                          Jersey’s 1997-1998 Performance Partnership
                          Agreement (PPA) states that “Surface water quality
                          issues of concern include eutrophic conditions in
                          lakes.”

                          NJDEP’s Surface Water Quality Standards, N.J.A.C.
                          7:9B, antidegradation policies, apply to all the State’s
                          surface waters. The Standards state that existing uses
                          shall be maintained and protected, and no irreversible
                          changes may be made to existing water quality that
                          would impair or preclude attainment of the designated
                          uses of a waterway. The Standards also state that
                          except as due to natural conditions, nutrients shall not
                          be allowed in concentrations that cause objectionable
                          algal densities, nuisance aquatic vegetation, or

                                   28                          Report No.1999-1-00225
otherwise render the waters unsuitable for the
designated uses.

NJDEP did very little testing of the State’s
approximately 380 public lakes. According to New
Jersey’s February 1998 “Water Quality Monitoring
Network” report, only 116 of the 380 public lakes (30
percent) have been evaluated. These amounted to
10,462 of 24,000 acres. In addition, most lakes tested
were listed as impaired in Appendix B of New Jersey’s
303(d) list. Since New Jersey has not tested more than
two-thirds of its public lakes, the total number of
impaired lakes may far exceed those reported.

The State has not identified the sources of pollution
causing or expected to cause lake water quality
impairments. It also did not assess and report the status
and trends of such water quality. Further, New Jersey
has not tested its lakes for many other potential
impairments.

For example, one cause of increased lake pollution is
land use practices. On June 25, 1997, the New Jersey
State Planning Commission published “The New Jersey
State Development and Redevelopment Plan:
Reexamination Report and Preliminary Plan.” This
report stated: “The State’s lake and coastal
communities, once used only seasonally, are being
converted to year-round communities and are often
exceeding the capacity of natural systems to provide
water and process waste as a result. Land use (the way
land is developed and managed) is the most potent tool
in addressing that situation.”



New Jersey has concentrated many of its monitoring
and assessment resources on coastal waters. The State
has a growing shellfish industry and vast coastal
recreation, which are important economic factors.
Although the State’s shell fishing and beach monitoring

         29                          Report No.1999-1-00225
activities improved, other water bodies, including lakes
and ponds, have suffered. There is a lack of indicators
and databases to adequately assess the lakes’ status or
perform trend analyses.

New Jersey’s move towards a watershed approach may
further aggravate this situation. While a watershed
approach is desired, Region 2 officials indicated that
people generally think of rivers and streams when
confronted with the word “watershed.” We found this
to be the case in New Jersey which had increased the
number of river and stream stations, but mostly ignored
lakes.

NJDEP officials stated that lakes would not be
overlooked under the New Jersey watershed program.
However, since the program was still under
development, they could not provide a list or map of
lakes to be tested under the program. They did state
that NJDEP would test and assess lakes “as needed” as
part of the overall watershed approach. NJDEP hopes
that the watershed program will help determine the
pollution source. NJDEP believed that more focused
monitoring would be more cost effective than
monitoring all public lakes.

The 1997-1998 PPA did not encourage lake
assessments. The PPA set goals and milestones relating
to lakes, but did not commit to monitor and report
progress. For example, lakes were included in two
subgoals under Water Quality: “2.1 Maintain and
improve the current number and quality of suitable lake,
ocean and bay bathing beaches in NJ” and “2.2
Maintain and improve the aesthetic value of lakes and
streams in NJ.” Under these subgoals the only indicator
to be used is “Status of Recreational Use Impairment of
Publicly Funded Clean Lakes Projects and Extent of
Assessment” for which the State has limited data
available. Furthermore, within the 19 pages of the
Activity Commitment Table for Surface and
Groundwater, there was only one NJDEP lake related

         30                          Report No.1999-1-00225
                    commitment which was to “Continue to manage Clean
                    Lakes grant projects.”

                    Other Regions have invested time and worked closely
                    with states to assess their public lakes. An example is
                    Region V and the State of Ohio. Ohio developed a
                    Lake Condition Index (LCI) using 13 parameters judged
                    to be necessary and sufficient to provide information
                    about potential chemical, biological, physical and
                    aesthetic lake problems. The LCI was used to
                    determine if public lakes attained designated uses and
                    met the CWA’s fishable and swimmable goals.

Decreased Funding   The reduction and earmarking of Federal funds have
                    hindered EPA’s long-term lakes plan. In 1976, Section
                    314 of CWA established the Clean Lakes Program. At
                    first, each Region distributed funds to the states who in
                    turn distributed funds to local governments. Initially,
                    the program consisted of two phases:

                           Phase 1: 70 percent Federal participation for a
                           feasibility study

                           Phase 2: 50 percent Federal participation for
                           implementation

                    In 1987, the program added demonstration grants and
                    water monitoring. However in 1995, Congress
                    rescinded budgeted money and funds have been
                    appropriated as designated line items. For example, in
                    fiscal 1998 funds were designated for two New Jersey
                    projects: Hopatcong ($400,000) and the Weequahic
                    Lake Association, a nonprofit group ($3 million).
                    Region 2's Lake Coordinator stated that while these are
                    worthwhile projects, the earmarking of funds hinders
                    EPA’s ability to follow through on a long-range plan.

                    NJDEP also noted that lake testing ceased with the
                    funding cut in 1995. However, NJDEP officials stated
                    they hoped to address some lake restoration activities
                    with a recently passed bond act. According to a July

                             31                          Report No.1999-1-00225
                          31, 1998 letter from NJDEP’s Director, Division of
                          Science and Research, $5 million was expected to be
                          appropriated by the New Jersey Legislature. From
                          these funds they were expecting to begin 11 Phase 1
                          Diagnostic Feasibility projects. She further noted that
                          the State had historically spent over $14 million on lake
                          restoration activities, including almost $2 million for
                          Phase 1 Diagnostic Feasibility studies. NJDEP believes
                          that spending scarce resources on Phase 1 projects is
                          more likely to lead to meaningful water quality
                          improvements.

Limited EPA Guidance      EPA guidance for monitoring inland lakes and ponds
                          has historically been less intensive than for rivers and
                          streams. For example, the Office of Water has issued
                          biological criteria for rivers and streams, but not for
                          lakes. The Office of Water finally issued a technical
                          guidance document on lakes in August 1998. This was
                          disseminated to the Regions on November 20, 1998.

                          NJDEP also stated that the absence of guidance affected
                          its operations. It was unable to conduct a Statewide
                          lake survey until an EPA protocol on lakes and coastal
                          waters was issued. This was also affecting its ability to
                          develop a “train-the-trainer” program.

                          Although 40 CFR part 130.4 places the ultimate
                          responsibility on the State, timely EPA guidance assists
                          states in assessing and protecting our nation’s waters.

Data From Other Sources   NJDEP needs to actively solicit, assemble and evaluate
                          all existing and readily available lake water quality
                          related data. This is in harmony with the efforts of
                          New Jersey’s water monitoring task force, which held
                          its first meeting on November 16, 1995, to enhance
                          sharing and accessibility of water quality data
                          throughout the State. Potential data and information
                          sources include Federal, state and local agencies,
                          members of the public and academic institutions.

                          For example, the New Jersey Department of Health

                                   32                          Report No.1999-1-00225
(NJDOH) requires that coastal, river and lake bathing
beaches be tested weekly and assessed by a State
approved laboratory for fecal coliform. NJDEP only
recently requested that lake sample assessments be sent
to them. NJDEP could also determine whether it
should request that additional laboratory tests (i.e.,
dissolved oxygen, e coli, etc.) be performed. In this
way, NJDEP may be able to expand its monitoring,
assessment, and reporting of lakes and coastal waters
with minimal additional financial burden. NJDEP used
the coastal beach results only as an indicator of problem
areas, and had not received lake beach testing results.

In response to a position paper, NJDEP stated that it
had cooperative agreements with local health
departments administered through the “County
Environmental Health Act.” Through this process,
NJDEP had received bacteriological monitoring results
for ocean and bay bathing beaches for a number of
years. NJDEP had recently modified these agreements
to start receiving similar data for freshwater lake
bathing beaches. Available data will be summarized in
the 1998 305(b) report. Further, they did not believe
they would be able to require additional information be
collected from these lakes without providing additional
financial support.


The State is in the early stages of a volunteer program.
NJDEP developed a “train-the-trainer” workshop in
cooperation with (Rutgers) Cook College Continuing
Professional Education Program. The workshop was
designed to provide information and training to help
attendees create a sustainable volunteer biological
monitoring program in their local communities.
However, the current workshops focus on volunteer
monitoring of rivers and streams. New Jersey plans to
develop similar programs for lakes, when EPA finalizes
its guidance for monitoring inland lakes and ponds.

The Region indicated several pieces of lake guidance

         33                          Report No.1999-1-00225
             that had been published by EPA. These included
             Monitoring Lake and Reservoir Restoration (1990),
             which is currently being updated by EPA Headquarters,
             and the Lake Reservoir Bioassessment and Biocriteria
             Technical Guidance Manual (1998). A nutrient criteria
             document for lakes is also in preparation.

             NJDEP could make preliminary plans based on
             available guidance. For example, Chapter 2 of EPA’s
             “Volunteer Lake Monitoring: A Methods Manual”
             discusses lake conditions that make good candidates for
             citizen monitoring. Potential areas include: (1)
             increased algal growth; (2) increased rooted aquatic
             plant growth; (3) lower dissolved oxygen
             concentrations in all or parts of the lake; (4)
             sedimentation on the lake bottom; (5) sediment
             turbidity; (6) lake acidification; and (7) bacterial
             pollution of bathing beaches.

             However, NJDEP officials were not optimistic that a
             volunteer program would provide much assistance to
             the State’s data gathering efforts. They noted that the
             most organized effort to support volunteer monitoring
             had been done by the New Jersey Coalition of Lake
             Associations. Recent conversations with this group had
             indicated minimal participation. NJDEP felt that any
             effort to increase this initiative would require resource
             allocations that could be better spent on other aspects of
             the lake program.

CONCLUSION   New Jersey lakes experience threats from many
             sources. Land use practices, non-point source
             pollution, and other factors can have profound
             environmental and health effects of lakes. NJDEP has
             not focused sufficient attention on the water quality of
             the State’s lakes. In addition, EPA has not provided the
             funding or guidance to enable the State to carry out its
             mandate. Without adequate assessment, monitoring and
             reporting, progress and effectiveness cannot be properly
             measured, and accountability is not possible. Further,
             there is no assurance that lake water quality issues will

                      34                          Report No.1999-1-00225
                    be adequately addressed.

RECOMMENDATIONS     We recommend that the Regional Administrator:

                    4-1. Encourage NJDEP to actively solicit, assemble
                    and evaluate all existing and readily available lake
                    water quality related data and information. For
                    example, NJDEP should coordinate with NJDOH to
                    receive their weekly lake tests.

                    4-2. Revise the next PPA to assure that NJDEP is
                    required to monitor and report lake bathing beach
                    conditions.

                    4-3. Encourage NJDEP to develop and implement a
                    plan to assess and report the status and trends of all
                    publicly owned lakes.

                    4-4. Suggest NJDEP obtain and evaluate ideas from
                    Ohio’s LCI for use in analyzing State public lake
                    conditions.

REGIONAL COMMENTS   Region 2 agreed that the condition of New Jersey’s
                    lakes had not been completely evaluated. As a result, in
                    the FY 1999-2000 PPA, the Region requested that
                    NJDEP describe plans for assessing aquatic life uses in
                    lakes and reservoirs. Also the Region conducted a field
                    investigation which resulted in a modification to the
                    national lake bioassessment methods for use in New
                    Jersey.

                    The Region also discussed the decreased funding issue.
                    To compensate for the loss of Section 314 funds, EPA
                    has recommended to states that Section 314 projects be
                    funded with CWA Section 319 nonpoint source monies.
                    This does not require the modification of the state
                    nonpoint source management plan to include in-lake
                    work. New Jersey has chosen not to include these
                    activities because of the limited amount of Section 319
                    funds available.


                             35                          Report No.1999-1-00225
                   Finally, the Region suggested that NJDEP could work
                   with the North American Lakes Management Society to
                   develop a lake monitoring program.

NJDEP’s COMMENTS   NJDEP described some of the actions it has taken to
                   address our recommendations. For example, it has
                   requested bacteria data and beach closing information
                   from lake beach managers for 1998 to begin the
                   reporting and assessment process. NJDEP is also
                   visually inspecting each lake for probable sources of
                   bacteria. A preliminary assessment for 1998 and 1999
                   of the extent of the monitoring performed, the closings,
                   and readily observable sources will be available in the
                   first quarter of 2000.

                   NJDEP stated that given that all Federal support for
                   lake water quality assessment by the states under
                   Section 314 was discontinued; if EPA wishes NJDEP to
                   reinitiate such assessments, it will have to provide the
                   funding.



                   Finally, NJDEP has already contacted Ohio EPA
                   concerning its monitoring programs. Those inquiries
                   have been expanded to include the LCI protocol.
                   NJDEP will review the LCI protocol and determine if it
                   is applicable to New Jersey’s lake program.

OIG COMMENTS       The need to evaluate and improve the water quality of
                   the State’s lakes has been acknowledged at both the
                   Federal and State level. We are encouraged that the
                   Region and NJDEP have taken actions to begin to
                   address this environmental issue.

                   Based on the responses to the draft report, there appears
                   to be a need for the Region and NJDEP to discuss
                   possible funding sources to support lake water quality
                   assessments. We believe the parties need to work
                   cooperatively to seek ways to fund these activities.


                            36                          Report No.1999-1-00225
37   Report No.1999-1-00225
[This page intentionally left blank]




               38                      Report No.1999-1-00225
                            CHAPTER 5
  REGION’S OVERSIGHT IMPROVED OVERALL PROGRAM


Positive Actions Taken       Overall, Region 2 improved its oversight of
                             the New Jersey water quality monitoring program.
                             Regional water personnel regularly communicate with
                             State officials through scheduled monthly and/or
                             quarterly meetings or conference calls. These
                             meetings/conference calls are used to discuss or resolve
                             problems and follow up on previous issues and
                             discussions. Region 2 representatives also attend
                             NJDEP stakeholders meetings to answer questions, or
                             clarify environmental issues that might arise. In
                             addition, the Region 2 conducts annual oversight
                             reviews of the water programs to determine if the State
                             is meeting its core measures’ commitments and the year
                             end status of these commitments.

                             The Region is also doing a better job of reviewing the
                             305(b) report and 303(d) list to assure the accuracy and
                             completeness of the reported information. For example,
                             the increased reviews resulted in improvements in the
                             1998 303(d) list, by including the number of impaired
                             waters. The Region has also been working with the
                             State to achieve more timely issuance of 305(b) reports
                             and 303(d) lists. In addition, the Region has been able
                             to obtain from NJDEP a 10-year plan for developing
                             TMDLs.

                             While Region 2's oversight of New Jersey’s water
                             quality program has had many positives, there were
                             some areas where improved communication could
                             strengthen the program’s operation. These are
                             discussed in the following subsections.


Ambient Quality Assurance    The Region was unaware that NJDEP had not

                                      39                         Report No.1999-1-00225
Project Plan            submitted its Quality Assurance/Quality Control
                        (QA/QC) workplan. NJDEP was required, as part of
                        the FY 1998 Departmental Quality Management Plan,
                        to develop a QA project plan as a work output. While it
                        had prepared one for July 1997 to June 1998 (the prior
                        period), one had not been prepared for the current
                        period (July 1998 to June 1999). The plan is for the
                        assessment of the ambient stream water quality network
                        within the State.

                        On September 16, 1997, NJDEP met with the Region’s
                        Monitoring and Assessment Branch to discuss the
                        revised ambient network. However, the EPA personnel
                        were unaware that the QA/QC workplan had not been
                        finalized.

                        In August 1998, NJDEP’s Bureau of Freshwater and
                        Biological Monitoring provided us with a draft QA/QC
                        workplan. The responsible NJDEP official stated that
                        the workplan had not been completed because of other
                        priorities. The workplan was finally approved on
                        September 23, 1998.

Written Responses to    The Region did not always require that New Jersey
Comments Not Required   provide written responses to its comments on water
                        quality standards. State officials preferred to address
                        standards issues at stakeholders meetings and generally
                        viewed Regional comments as guidance. Hence, there
                        was no assurance that New Jersey would address EPA
                        concerns in standards revisions.

                        For example, in a February 3, 1998 letter commenting
                        on the Region’s review of NJDEP’s Phase 1 standards
                        revision, the DEPP Director stated that revisions were
                        needed for the definitions for mixing zones, TMDLs,
                        and waters of the State. NJDEP did not respond to
                        these recommendations.


                        A Division of Watershed Management official stated
                        that NJDEP viewed this letter as simply technical

                                 40                         Report No.1999-1-00225
                  support/guidance which did not require any formal
                  response. He further stated that the EPA Standards
                  Coordinator was part of the stakeholder process and if
                  the Region considered these proposed revisions
                  important, the Regional representative would bring
                  them up at the stakeholder meetings. However, these
                  issues did not come up at the meetings.

                  The EPA Standards Coordinator agreed that New Jersey
                  was not required to provide a written response unless
                  the Region specifically requested one. He also stated
                  that the Region would take its recommendations into
                  account during the Phase 2 revisions. According to the
                  State Performance Partnership Agreement, the target
                  date for Phase 2 revisions is December 1999.

                  We question the advisability of not obtaining a formal
                  State response since there is no record of the State’s
                  position on the EPA recommendations and no assurance
                  that the parties will remember to address these issues
                  during Phase 2.

CONCLUSION        The Region had been improving its oversight of
                  NJDEP’s water quality monitoring program. Further
                  improvements could be attained through increased
                  communication with the State agency.

RECOMMENDATIONS   We recommend to the Regional Administrator that the
                  Region:

                  5-1. Periodically review the State Departmental
                  Quality Management Plan workplan during its
                  development to verify that outputs are met and all
                  workplan documents have been received. Upon
                  completion of the workplan approval process, a written
                  justification should be provided for any disapprovals.


                  5-2. Document all meetings and conversations with
                  NJDEP, especially when they pertain to standards,
                  policies, recommendations, and changes.

                           41                         Report No.1999-1-00225
                    5-3. Require NJDEP to provide written responses to
                    Regional comments on proposed water quality
                    standards.

REGIONAL COMMENTS   The Region stated that it was not required to be aware
                    of the status of the QA/QC workplan because that was
                    an output of the Departmental Quality Management
                    Plan and all work outputs were NJDEP responsibilities,
                    not EPA. The Region performed random informal
                    status checks throughout the year and a complete end-
                    of-year review was performed by the EPA Quality
                    Assurance Officer.

                    The Region emphasized the fact that the
                    recommendations in its February 3, 1998 letter to
                    NJDEP were important whether they were raised for
                    discussion at a stakeholders meeting or not. As further
                    stated in that letter, while NJDEP elected to separate its
                    review/revision of the NJSWQS into two phases, EPA
                    intended to take a single action on all applicable
                    revisions that result from the two phases of the State’s
                    process. Therefore, EPA will conduct a final review of
                    the collective Phase 1 and 2 revisions following
                    completion of the entire State review/revision process.

NJDEP’s COMMENTS    NJDEP also stated that it worked closely with Region 2
                    during the development of rule proposals. Pre-proposal
                    drafts were shared with EPA and feedback was
                    provided. However, NJDEP is proceeding to develop
                    proposals for NJSWQS revision through a very open,
                    proactive, public participation process. As part of that
                    process issues raised by EPA are presented and
                    discussed with stakeholders.

                    Once a rule is adopted, comments from EPA would
                    receive a formal response from NJDEP. Requiring a
                    formal response to informal comments developed by
                    EPA as part of a cooperative effort between NJDEP and
                    EPA to update the NJSWQS would work against the
                    public participation process that EPA encourages.


                              42                          Report No.1999-1-00225
OIG COMMENTS   The QA/QC workplan was one of the quality assurance
               work outputs for the State’s surface water ambient
               monitoring program. When we had contacted NJDEP
               in August 1998 the document was still in draft. It was
               finally issued in September 1998. While the Region
               may not have direct responsibilty for work outputs, it
               should be cognizant of them when it conducts its
               informal status checks to assure that the outputs are
               being addressed.

               We are also of the opinion that the Region should get
               written responses to its comments/recommendations on
               the State’s proposed water standards. There is no
               assurance that staff members who are intimately
               involved in the process will be around at the end of the
               process. Without a written response there is no
               historical record of the State’s position or assurance that
               all concerns will be addressed.




                         43                          Report No.1999-1-00225
[This page intentionally left blank]




             44                        Report No.1999-1-00225
                               APPENDIX 1
                                   BACKGROUND


The Clean Water Act (CWA) is the primary legislation addressing water quality programs.
The Act’s objective is to restore and maintain the quality of the nation’s surface waters.
CWA requires states to adopt water quality standards. These standards are an important
basis for state actions to control and remedy water pollution. Water quality standards
have three parts: water use classifications, water quality criteria, and an antidegradation
policy.

States classify the state waters according to how the water can be used, such as for
drinking water supply, fishing, and swimming. The waters can have multiple use
classifications. The CWA’s goal is that all waters of the United States will be “fishable,
swimmable” where attainable. The “fishable” goal provides for the protection and
propagation of fish, shellfish, and wildlife. The “swimmable” goal provides for recreation
in and on the water. States are required to adopt “fishable, swimmable” use classifications
for all their waters, unless they can show that the water could not sustain these uses.
States can adopt additional use classifications, such as boating, drinking water supply, and
agricultural or industrial use.

Once the water use classification is set, the Act requires the state to develop water quality
criteria for that use. Water quality criteria identify conditions that sustain the water use,
such as the amount of a specific pollutant that may be present in the water, or the
biological or physical condition of the water. For example, the water quality criteria for a
“swimmable” use could identify how much fecal coliform can be present in the water and
allow safe swimming.

EPA develops and publishes criteria that set numerical limits for pollutants based on the
effect the pollutants have on the water use classifications. CWA required EPA to develop
criteria for and designate 126 chemicals as “priority” toxic pollutants; i.e., the most
persistent, prevalent, and toxic of chemicals. EPA has developed criteria for 99 “priority”
toxic pollutants and 30 other pollutants. The states may use EPA’s criteria or develop
their own scientifically defensible criteria.

Title 40, Code of Federal Regulations (CFR) part 131.12 requires states to have an
antidegradation policy to conserve, maintain, and protect existing uses of water bodies and
maintain water quality. The antidegradation policy also should protect waters of

                                             45                          Report No.1999-1-00225
exceptionally high quality or value.

States are required to review their water quality standards once every three years and
obtain EPA approval for the standards. EPA is required to promulgate water quality
standards for the state if EPA disapproves a state’s water quality standards. The state’s
water quality standards remain in effect unless EPA promulgates standards for the state.

CFR part 130.4, Water quality monitoring, requires the states to develop a monitoring
program to assess whether the state’s waters meet the water quality standards. The state
water quality monitoring program generates important information necessary to guide
management decisions and track environmental progress. The monitoring program
identifies the waters to be tested, the frequency of testing, the types of testing, and the
entity to conduct the testing. The state monitoring program must meet EPA’s general
quality assurance requirements.

CWA requires each state to submit to EPA a biennial water quality assessment report
(305(b) report) summarizing its water quality assessments. EPA summarizes the state
reports in a national report to Congress. EPA uses the state water quality assessments to
measure performance in achieving its goal of clean and safe water.

If a water body does not meet its water quality standards, the state classifies the water
body as impaired and determines the cause of impairment. Water pollution comes from
either point or nonpoint sources. Point source discharges are controlled through the use of
permits. Examples of point source dischargers are municipal sewage treatment plants and
industrial facilities. These types of facilities discharge through identifiable conveyances,
such as pipes or sewers into surface waters. Nonpoint sources of pollution are less readily
identifiable, such as from agricultural runoff.

Once the state identifies its impaired water bodies, the state is required to develop total
maximum daily loads (TMDLs) if existing controls are not sufficient to correct the
impairment. TMDLs specify the amount of pollution allowed to enter a water body from
both point and nonpoint sources. CWA requires all states to submit to EPA a biennial list
of its impaired water bodies (303(d) list) that will require TMDLs. EPA reviews and
approves the impaired water body list and all state TMDLs.

The Region 2, Division of Environmental Planning & Protection (DEPP), Water
Programs Branch develops and implements selected CWA water programs. The Branch’s
Water Quality Team coordinates and implements Region 2's water quality management
programs. DEPP’s Community & Ecosystem Branch develops and coordinates the
implementation of plans to address identified environmental problems. It also assists
states develop and implement water criteria and reviews state developed TMDLs. In

                                             46                          Report No.1999-1-00225
addition, the Division of Environmental Science and Assessment, Monitoring Operations
Section is responsible for the implementation and oversight of state activities for the basic
water quality monitoring program.

The New Jersey Department of Environmental Protection’s (NJDEP) Division of
Watershed Management is responsible for the State’s water quality standards. NJDEP’s
Division of Science and Technology, Water Monitoring Management, provides monitoring
support by collecting, analyzing, assembling and distributing data and information.




                                             47                          Report No.1999-1-00225
[This page intentionally left blank]




              48                       Report No.1999-1-00225
